                                                 NATIONAL SCIENCE FOUNDATION 

                                                  OFFICE OF INSPECTOR GENERAL 

                                                    OFFICE OF INVESTIGATIONS 


                                            CLOSEOUT MEMORANDUM

 Case Number: AI0070054                                                                            , Page 1 of 1



              NSF oro received an allegation regarding intellectual theft by a university faculty
               1                        2 .
         member and a graduate student.

                 Our review indicated that, prior to the alleged misconduct, the faculty member and
         graduate student had worked with another researcher? shared his ideas, and collaborated with
         him on an NSF proposa1. 4 Our review further indicated that the alleged misconduct occurred
         after the researcher (who was the PIon the awarded proposal) took a leave of absence from the
         UniversityS and became unavailable to complete his projects. Lastly, our review indicated the
         University disclosed to NSF the researcher/PI's leave of absence and the substitution of the
         faculty member as PIon the NSF award.

                 The University conducted an inquiry and we deferred our process pending its completion.
         The University's inquiry concluded there was insufficient substance to warrant an investigation.
         Specifically, the inquiry committee determined that the evidence available to it was insufficient
         to conclude that the faculty member and/or graduate student inappropriately used the
         researcher's intellectual property. Furthermore, the committee found the motivation for
         changing PIs to be the University'S concerns regarding the researcher's indictment and
         subsequent long-term exclusion from receiving federal grants and contracts. The University
         determined that the faculty member's substitution as PI was not the result of an illicit scheme on
         the faculty member's part to remove the researcher from the grant and clear the way for misuse
         of the researcher's intellectual property.

                We concurred with the University'S assessment, and determined there was no evidence to
         substantiate the allegation. Accordingly, this case is closed.




                                                                                 on counts of violating the
                                                  £'nnc"iT·""",   money laundering, and making false statements




NSF OIG Form 2 (11/02)
